Audit of USAID/Peru’s Global Development
Alliances

Audit Report No. 1-527-05-005-P

February 14, 2005




              San Salvador, El Salvador
February 14, 2005


MEMORANDUM
FOR:           USAID/Peru Mission Director, Hilda Arellano

FROM:          Acting Regional Inspector General/San Salvador, John Vernon
               “/s/“

SUBJECT:       Audit of USAID/Peru’s Global Development Alliances (Report
               No. 1-527-05-005-P)

This memorandum is our final report on the subject audit. In finalizing this report,
we considered your comments on our draft report and have included your response
in Appendix II.

This report contains two recommendations for your action. Based on your
comments, management decisions have been reached for these recommendations.
Determination of final action will be made by the Bureau for Management’s Office
of Management Planning and Innovation (M/MPI/MIC).

Once again, thank you for the cooperation and courtesy extended to my staff
throughout the audit.




                                                                                  1
This page intentionally left blank.




                                      2
Table of   Summary of Results                                                           5
Contents

           Background                                                                   5


           Audit Objectives                                                             6


           Audit Findings                                                               7

                  Did USAID/Peru consider utilizing Global Development Alliances
                  in planning its activities?                                           7

                  Did USAID/Peru report its Global Development Alliances
                  accurately and completely?                                           10

                  Did selected USAID/Peru's Global Development Alliances achieve
                  their intended results?                                              12

                         Two of USAID/Peru’s Global Development Alliances did
                         not have intended results or performance targets identified   13

                         One of USAID/Peru’s Global Development Alliances did
                         not achieve its intended results as scheduled                 15


           Evaluation of Management Comments                                           17


           Appendix I – Scope and Methodology                                          19


           Appendix II – Management Comments                                           21




                                                                                            3
This page intentionally left blank.




                                      4
Summary      The Regional Inspector General/San Salvador conducted this audit to determine if
of Results   USAID/Peru considered utilizing Global Development Alliances (GDAs) in
             planning its activities; if the Mission reported on GDAs accurately and completely;
             and if selected GDAs achieved their intended results.

             The results of the audit concluded that USAID/Peru considered utilizing GDAs in
             planning its activities (page 7) and that USAID/Peru reported its GDAs accurately
             and completely (page 10). Of USAID/Peru’s three GDAs, it was not possible to
             determine if two of them achieved their intended results because neither the Mission
             nor the implementing partners established annual performance targets to measure
             their intended results (page 12). The third GDA did not achieve its intended results
             as scheduled (page 15).

             Two recommendations were made to address the findings discussed in this report.
             RIG/San Salvador recommended that USAID/Peru develop performance measures
             for its Lesser Known Species and Cordillera Azul GDAs, with specified
             intermediate targets and dates demonstrating when planned results will be achieved
             over the projects’ lives (page 14) and that the Mission modify existing levels of
             planned annual targets to more closely reflect the slow implementation due to the
             challenging circumstances within the Huancavelica valley of Peru (page 16).

             USAID/Peru agreed with the findings and recommendations presented in this
             report (page 17).



Background   Over the last thirty years, the funding mix of financial resources dedicated to
             assisting the developing world has undergone a major transition. In 1970, 70
             percent of the money that went to the developing world from the United States
             came from the Federal government and only 30 percent came from other sources.
             By 2000, only 20 percent came from the Federal government and 80 percent from
             other sources. In recognition of this shift, Secretary of State Colin Powell
             announced the establishment of the Global Development Alliance (GDA)
             Initiative in May 2001. The GDA was launched in January 2002 as one of
             USAID’s four pillars to mainstream the use of the Public-Private Alliance
             business model within USAID. Its aim was to leverage USAID’s limited
             resources to achieve a greater impact.

             An alliance is an agreement between two or more parties to jointly define a
             development problem and jointly contribute to its solution. Alliance partners
             share resources, risks, and rewards in pursuit of a development objective that may
             be better achieved working together. USAID’s guidelines for the GDA model
             currently require a minimum one-to-one matching of resources with all alliance
             partners combined; in addition, the partners’ joint share must include non-public
             resources at least equal to 25 percent of the USAID contribution.


                                                                                               5
             To support GDAs, the GDA Secretariat was created as a small, temporary unit
             attached to the Office of the Administrator. The Secretariat provided technical
             assistance to missions and bureaus and managed an incentive fund to support
             alliance-building activities. The Secretariat itself did not directly manage GDA
             programs.     Instead, individual operating units designed, negotiated, and
             implemented alliances in support of their strategic objectives. Performance
             reporting was the responsibility of the operating unit(s) involved in the alliance
             and was accomplished through USAID’s Annual Reporting System. Operating
             units also reported alliance activity to the Secretariat for incorporation into the
             GDA Secretariat’s database.

             Working closely with development partners was certainly not new to USAID.
             Since 2001, Public-Private Alliances had been emphasized as a business model to
             increase USAID’s effectiveness in delivering foreign assistance. In fiscal year
             2003, USAID reported that it had initiated or substantially expanded an estimated
             140 alliances with USAID funding of approximately $273 million—leveraging an
             estimated $1.2 billion in partner contributions. These alliances covered a variety
             of USAID initiatives ranging from economic growth to humanitarian assistance.
             Over this same period, USAID/Peru reported three GDAs with USAID funding of
             nearly $6 million (of which $300,000 derived from GDA Secretariat in
             USAID/Washington) and partner contributions amounting to $7.1 million.


Audit        This audit was conducted as part of the Regional Inspector General/San
Objectives   Salvador’s Annual Plan for 2005.

             The audit was conducted to answer the following questions:

             •   Did USAID/Peru consider utilizing Global Development Alliances in
                 planning its activities?

             •   Did USAID/Peru report its Global Development Alliances accurately and
                 completely?

             •   Did selected USAID/Peru’s Global Development Alliances achieve their
                 intended results?

             Appendix I contains a discussion of the audit's scope and methodology.




                                                                                              6
Audit Findings   Did USAID/Peru consider utilizing Global Development Alliances in
                 planning its activities?

                 USAID/Peru considered utilizing Global Development Alliances (GDAs) in
                 planning its activities. USAID/Peru had seven strategic objectives in its Strategic
                 Plan (prepared in June 2001) for Fiscal Years 2002 – 2006. Of these seven
                 strategic objectives, two included GDAs. The strategic objectives which
                 incorporated GDAs were the economic objective, “Increased Economic
                 Opportunities for the Poor in Selected Economic Corridors,” and the
                 environmental objective, “Strengthened Environmental Management to Address
                 Priority Problems.”

                 The economic strategic objective was designed to support and monitor the
                 progress of programs and activities that lead to increased economic opportunities
                 for the target populations of Peru. The principal programs being carried out under
                 the objective were P.L. 480 Title II Food Assistance; Microenterprise and Small
                 Producers Support; Poverty Reduction and Alleviation; and a new Microfinance
                 Initiative.

                 Of the four principal programs described above, the Poverty Reduction and
                 Alleviation program, managed by Chemonics, was designed to make marketing
                 and production assistance available to small and medium companies through
                 Economic Service Centers located in each of ten priority economic corridors of
                 Peru. These centers provided access to current and projected market information,
                 along with information regarding financial and transportation services. A key
                 function of the centers was the development and facilitation of commercial
                 contacts between buyers and local producers, as well as the identification of
                 companies willing to invest capital in local enterprises. The expected benefit of
                 these centers was to increase production in the region. Both of these activities
                 had been successful in generating increased incomes and employment for the
                 strategic objective’s target beneficiaries.

                 Adding to the ten centers described above, USAID/Peru signed a memorandum of
                 understanding in January 2002 for an eleventh center located in the Huancavelica
                 Valley, described as the poorest economic corridor in Peru. The memorandum
                 was signed with the Buenaventura Mining Company of Peru. Under this
                 agreement, the Buenaventura Mining Company was to contribute approximately
                 $1 million to finance operations of the Huancavelica center. USAID/Peru agreed
                 to provide an additional $140,000 to Chemonics’ existing contract of over $16
                 million to manage this eleventh center. This MOU with Buenaventura met the
                 definition of a GDA as defined by the GDA Secretariat. The definition of what
                 constitutes a GDA will be further explained in the next section of this report (page
                 10).




                                                                                                   7
The environmental strategic objective was designed to promote sound
environmental management policies to address priority problems. The strategic
objective also contributed directly to the USAID/Peru Mission’s goal of
promoting the expansion of sustainable opportunities for improved quality of life
through democratic processes and institutions. Community participation in
decision-making, support for accountable, transparent governance and for
Peruvian partners wishing to undertake peaceful advocacy for environmental
policy reform – all elements of democratic processes – were integral elements of
the strategic objective strategy.

As part of this strategy, USAID/Peru signed a cooperative agreement with the
Field Museum of Natural History, Chicago, for $5.25 million for environmental
conservation activities in the Cordillera Azul National Park of Peru. This
program strategy focused on protection of the biological diversity and ecological
processes within the Park and also on development of ecologically compatible
economic opportunities in the Park’s Buffer Zone (agro forestry, diversification of
chacras1, reforestation). The program included a component to increase local
awareness of the biological and economic importance of the park through
involvement of key stakeholders in park conservation and management activities.
Under this agreement, which commenced in April 2003, the Field Museum of
Chicago was to contribute $5.6 million in cost-sharing.

Another activity under the environmental strategic objective was a program under
a memorandum of understanding signed in 2002 involving USAID, the World
Wildlife Fund (WWF) and Metafore to establish a Sustainable Forest Global
Alliance. The memorandum between WWF and USAID was signed by
USAID/Washington with the express intention of creating a GDA involving many
countries, not just Peru. Metafore is a non-profit organization which promotes
purchasing practices in North America that supports the conservation, protection,
and restoration of forests throughout the world. Under this agreement, Metafore
would work with USAID to extend its successful collaborative process in North
America to forge new global partnerships among environmental organizations, the
forest products industry, corporate consumers of wood, and a wide range of other
enterprises.

Prior to this signing, USAID/Peru and WWF already had procured an alliance
amounting to $2.1 million via a cooperative agreement signed in May 2002 in
which WWF had agreed to implement a forest sector project. This agreement was
modified in September 2002 to increase USAID’s contribution by $550,000 in
support of the memorandum of understanding described above. Of this amount,
$250,000 was obligated from USAID/Peru’s program funds and the remaining
$300,000 through the GDA Secretariat in USAID/Washington. Also involved in
this GDA were Exportimo/South Cone Trading Company, a Los Angeles-based
furniture manufacturer, and Magensa, a Peruvian furniture manufacturer. These

1
    Chacras refer to a family plot of land.



                                                                                 8
two companies and WWF in the aggregate agreed to match USAID’s contribution
of $550,000. The modification allowed the parties to promote lesser known
species of wood for furniture manufacturing. Funds were allocated to the
furniture companies so that both could manufacture, promote, and sell furniture
manufactured from alternatives to the traditional species of wood such as
mahogany and oak.

In March 2003, another amendment to the WWF cooperative agreement increased
USAID’s contribution by almost $9.9 million (bringing the new total up to $12.5
million, including the GDA project) to implement the Certification and
Development of the Forest Sector project. The design of this project had been
contemplated in the original cooperative agreement signed in 2002 to promote the
reform of Peru’s forest sector.

In April 2003, another cooperative agreement was signed with WWF for a total of
$3.5 million at the Mission Director’s request to show rapid results in terms of
income and job opportunities resulting from the sustainable use of forest
resources. This new cooperative agreement was named Aguaytía-Von Humboldt.
In May 2004, USAID/Peru began the process of merging all of these activities
into a single cooperative agreement.

In summary, USAID/Peru incorporated three GDAs into its Peru country strategy.
Those GDAs were the Huancavelica Economic Service Center, the Cordillera
Azul forestry conservation project, and the Lesser Known Species project. These
GDAs were created and implemented because the Mission determined that they
were compatible with USAID/Peru’s economic and environmental strategic
objectives. Since 2002, USAID/Peru also considered a number of other GDAs
suggested by the GDA Secretariat in USAID/Washington. Most of these GDAs
were rejected because they were determined to be incompatible with
USAID/Peru’s priority areas. Mission officials voiced a number of important
themes that grew out of the Mission’s consideration of GDAs. Some of those
points are presented in this report for informational purposes.

The GDA Secretariat’s Competitive Process - The GDA Secretariat’s role in
building GDAs was to facilitate and bring new partners to missions for
partnerships that can be mutually beneficial. If all parties agreed that the program
was in their own best interest, the program would move ahead to the award stage.
The Secretariat’s role was neither to manage alliances nor to provide on-going
funding (although it could provide seed money for new alliances). Hence, if a
GDA were found to be compatible with a Mission country strategy, all additional
management and funding responsibilities for the GDA would have to be
considered by the Mission before implementing the alliance.

Each year the GDA Secretariat issued its worldwide Annual Program Statements
(Statement). This Statement was a competitive mechanism to disperse the little
funding the Secretariat had towards alliances that it thought would have multiplier



                                                                                  9
effects in terms of development impact. The procedure for application was
largely mission-driven and those missions that put in their own funding toward
alliances were looked upon favorably.

USAID/Peru officials raised issues with respect to the GDA Secretariat’s process
of facilitating prospective GDA partners with the Mission. They believed that
proposals resulting from a worldwide Statement did not incorporate the unique
circumstances and priorities in Peru and its USAID program. In 2002, most of the
concept papers reviewed were not consistent with the Mission’s programmatic
(geographic or technical) focus or approach. Mission officials did not see many
viable partnerships coming from such a broad invitation. Also, despite the fact
that the Statement clearly stated that there was no commitment to provide
funding, the issuance of an invitation to submit concept papers created an
expectation that funds would likely be available. The reality of the situation was
that, absent some funding from GDA Secretariat in Washington, USAID/Peru’s
program funds were already committed to other projects. Therefore, it was
unlikely that the Mission would be able to fund even good proposals.

This process led to some confusing management situations. For example, in
2002, Mission officials received a concept paper to conduct alliance work in
several countries, not all in the Andean region. Unfortunately, no one was
identified to coordinate technical, financial, and procurement considerations
across those countries. The Mission believed that a Washington office should
have been designated to take the lead in such cases, at least until individual and
group Mission interests and capabilities were determined.

In summary, Mission officials did not view the Annual Program Statement
process as being the most helpful or efficient way of establishing true, private,
resource-mobilizing partnerships. It generated numerous proposals—few of
which were compatible with the Mission’s strategy. The time, effort, and
resources spent to review proposals generated from the Statement process might
have been better spent specifically identifying and pursuing local partnerships.
From USAID/Peru’s perspective, a system in which missions identified good
opportunities and investors in the host country, while GDA Secretariat identified
and cultivated likely U.S. investors and operators, might be preferable.

Did USAID/Peru report its Global Development Alliances accurately and
completely?

USAID/Peru reported its Global Development Alliances (GDAs) accurately and
completely.

GDA Secretariat officials requested that missions report alliances that met its
definition of GDAs. It recognized that missions may have Public-Private
Alliances (PPAs) that did not meet the GDA Secretariat’s definition of an
alliance. For an alliance to be included in the GDA Secretariat’s database, the



                                                                               10
alliance must have contained the following characteristics. Alliance partners must
have matched USAID funds on at least a one-to-one basis over the life of the
alliance (a concept the Secretariat refers to as “leveraging”). Non-public
resources should be no less than 25 percent of the USAID contribution, whether
in cash or in kind. Finally, the alliance must include joint planning and shared
risk, generally but not exclusively through the use of a memorandum of
understanding.

Of USAID/Peru’s PPAs, three met the GDA Secretariat’s characteristics
described above. These three alliances, described in the previous section of this
report, were 1) the Huancavelica Economic Service Center (Center); 2) the
Cordillera Azul National Park conservation program; and 3) the Lesser Known
Species project.

With respect to the Huancavelica Center, the private partner involved was the
Buenaventura Mining Company of Peru. USAID/Peru signed a memorandum
with Buenaventura in which USAID agreed to contribute approximately $140,000
via its contactor, Chemonics. Buenaventura agreed to contribute approximately
$1.0 million; hence, the first requirement, regarding one-to-one leveraging for a
GDA was met. The second requirement was also met because the Company’s
contribution of $1.0 million exceeded 25 percent of USAID’s contribution of
$140,000. Joint planning and shared risks were illustrated through the use of this
alliance's memorandum, signed in February 2002, to open a center in the
Huancavelica valley, considered the poorest area of Peru. Prior to the signing,
USAID/Peru had opened ten centers throughout Peru via a contract with
Chemonics, none of which were in the Huancavelica valley. Buenaventura, after
displacing its mine workers in the valley, decided to finance this center with
USAID/Peru’s assistance.

With respect to the Cordillera Azul project, this alliance was formed as a
modification to a pre-existing cooperative agreement signed in April 2003.
USAID/Peru funded $5.25 million and partnered with the Field Museum of
Natural History in Chicago. The museum agreed to contribute $5.6 million. This
met the one-to-one leveraging requirement. Since the museum was a non-public
institution, the 25 percent requirement was also met. The cooperative agreement
also detailed the joint planning and shared risks involved. The museum, working
in close collaboration with Centro de Conservación, Investigación y Manejo de
Areas Naturales (Center for Conservation, Research, and Management of Natural
Resources - CIMA), agreed to jointly develop ecologically compatible
opportunities for communities neighboring the Cordillera Azul National Park. The
1.35 million hectare national park (approximately 3.3 million acres) in central
Peru, established in May 2001, had unique potential to transform land-use
dynamics in the Central Huallaga (formerly “Coca”) Valley. The USAID
investment of $5.25 million over four years was part of the overall Field Museum
Program which received funding from other sources including the Moore and
McArthur Foundations, totaling over $10 million, that offered local communities



                                                                               11
long-term, stable alternatives to illicit crops in the lands adjacent to the national
park.

With respect to the Lesser Known Species project, this alliance was a
modification to an existing cooperative agreement with World Wildlife Fund
(WWF) and was a small portion of a much larger development project. The
partners were already working together before the creation of the GDA
Secretariat. This modification was signed in September 2002 and increased the
total amount of the award by $550,000. Further, a memorandum encompassing
worldwide activities with the WWF was signed by the USAID Administrator.
USAID/Peru provided $250,000 of the $550,000 to WWF. WWF and two more
partners, Exportimo and Magensa (furniture companies) together were matching
the amount of $550,000. GDA Secretariat from USAID/Washington was
providing the remaining funds of $300,000 for the Peru portion of the project (the
project was actually worldwide). Thus, the one-to-one leveraging requirement
was met. WWF and the other partners were private institutions; and therefore, the
25 percent requirement was met. The memorandum signed by the Administrator,
as well as the award modification signed by USAID/Peru, demonstrated joint
planning and risk. The partners agreed to pool resources for the purpose of
cultivating and promoting non-traditional sources of wood in order to preserve
certain species of forest, such as oak and mahogany.

USAID/Peru's Annual Report for Fiscal Year 2004 completely and accurately
reported results of the Mission’s development activities related to these GDAs for
the year ending September 30, 2003. The Annual Report was USAID’s main
program reporting document and was used primarily for justifying future budgets.
The Mission prepared this report according to the Annual Report Guidance for
2003. The Guidance requested that missions report GDA information. With
respect to GDAs, we found that the Mission's Annual Report for Fiscal Year 2004
complied, in all material respects, with the Annual Report Guidance for 2003.

Did selected USAID/Peru’s Global Development Alliances achieve their
intended results?

For two of USAID/Peru’s three Global Development Alliances (GDAs), we were
unable to fully answer the audit objective because neither USAID/Peru nor its
alliance partners identified what the intended results or performance targets were.
The third of USAID/Peru’s GDAs did not achieve its intended results as
scheduled.




                                                                                  12
Two of USAID/Peru’s Global Development
Alliances Did Not Have Intended Results or
Performance Targets Identified

Summary: Two of USAID/Peru’s Global Development Alliances did not have
intended results, or performance targets, identified. This was a requirement
under the Automated Directives System 202.3.6. One of the two alliances did
not have intended results or performance targets identified because it was part of
a much larger development program which did have overall results identified,
and therefore, no specific results or targets for the alliance itself were developed.
The other alliance did not have intended results or performance targets identified
because the Mission and the implementing partner had not reached an agreement
on the performance indicators to use for monitoring activities. Without
performance indictors and targets identified, USAID/Peru could not determine if
its alliance activities were having the desired effects.

The Lesser Known Species (Species) and the Cordillera Azul National Park
alliances did not have performance indicators, commonly known as results or
outputs, to measure the performance of the activities. For the Species activity,
the Mission viewed this program as a sub-component of a larger environmental
development project, and therefore did not prepare separate targets. The Species
program was a small part of other USAID/Peru environmental activities involving
the World Wildlife Fund (WWF) totaling approximately $12 million.
USAID/Peru only contributed $250,000 for the GDA portion of the activities.
The other GDA amounts were provided from the GDA Secretariat ($300,000) and
from the three alliance partners WWF, Exportimo and Magensa. Exportimo and
Magensa were both furniture companies. WWF, Exportimo, and Magensa agreed
to contribute $550,000 in the aggregate. Because the GDA portion was a
relatively small portion of the overall WWF project, no indicators were developed
specifically for GDA activity. A new workplan (being developed in conjunction
with USAID) for the Alliance that was currently being negotiated mentioned two
indicators, but there were none previously. These two indicators were:

   •   A strategic plan and three international agreements or alliances would be
       created to develop national and international markets for Lesser Known
       Species.

   •   Two furniture manufacturing companies would incorporate Lesser Known
       Species in their production lines, increasing the economic value associated
       with sustainable forest management.

Although the new workplan defined the above as indicators, the Cognizant
Technical Officer (CTO) agreed that developing more specific measurable results
as defined by the Automated Directives System (ADS) for the alliance would be a
useful monitoring tool. The new Mission Environment Team Leader was already




                                                                                  13
aware of the lack of measurable outputs and was working with the CTO to
develop them.

For the National Park project, the lack of a performance management plan (also
known as performance monitoring plan) was the result of several factors. The
acting Mission Director (Deputy Mission Director) acknowledged that a
Performance Monitoring Plan (PMP) should have been established during the first
six months and finalized during the first year but this had not happened. Further,
the alliance partner had to develop an efficient Monitoring and Evaluation system
to track program activities that could respond to the overall conservation
objectives as well as alternative development objectives, as the activity was
funded by the Andean Counternarcotics Initiative (ACI) fund. Field Museum of
Natural History and its in-country partner, Centro de Conservación, Investigación
y Manejo de Areas Naturales (Center for Conservation, Research, and
Management of Natural Resources - CIMA), presented several draft Performance
Monitoring Plans to the new CTO, but the Mission had not approved any plan
considering there were no clear definitions of objectives or practical and
measurable indicators that took into consideration the conservation of the park
and the anti-narcotics nature of the activity. The museum hired Associates in
Rural Development (ARD), a U.S.-based non-government organization, to
provide technical assistance and to develop a Performance Monitoring Plan, but
the plan produced by ARD was not adequate. Therefore, the museum decided to
develop the plan itself in order to comply with the USAID/Peru Environment &
Natural Resources Results Framework. More than a year has passed and the
Museum has not developed an effective Monitoring and Evaluation system for
National Park activities. As with the Lesser Known Species Alliance, the new
Mission Environment Team Leader recently became aware of the lack of a
Monitoring and Evaluation system and was already working to establish one.

ADS 202.3.6 states that monitoring the quality and timeliness of outputs produced
by implementing partners is a major task of CTOs and Strategic Objective teams.
Outputs are specifically described in contract statements of work and grant
agreement program descriptions. Outputs are critical to achieving results. Delays
in completing outputs, or problems in output quality, provide an early warning
that results may not be achieved as planned. Without an adequate system for
measuring planned outputs, CTOs and team leaders cannot know whether the
activities are having the desired effects.

In light of these circumstances with respect to the Lesser Known Species and
Cordillera Azul National Park projects, we are making the following
recommendation:




                                                                               14
       Recommendation No. 1: We recommend that USAID/Peru
       develop targeted performance indicators for its Lesser Known
       Species and Cordillera Azul National Park Global
       Development Alliances, with specified intermediate goals and
       dates indicating when planned results will be achieved over the
       projects’ lives.


One of USAID/Peru’s Global Development
Alliances Did Not Achieve Its Intended Results
as Scheduled

Summary: One of USAID/Peru’s Global Development Alliances, the
Huancavelica Economic Service Center, had not accomplished its intended results
because the established targeted output levels for the year ending December 31,
2003, were based upon conditions in other economic corridors of Peru where
poverty and unemployment were less severe. According to Automated Directives
System 202.3.6 and TIPS 8, establishing realistic goals was vital for motivating
employees and building confidence.

With respect to the Huancavelica Economic Service Center (Center), this GDA
was not on schedule to achieve the intended results. Sales, employment growth,
and private investments, which were the three indicators for this activity, were
below the targets established.

As of December 31, 2003, net sales increased by only $190,778, while the
targeted output for the year was approximately $1.2 million. Additional
employment (in terms of word-days generated) was 5,375, out of a goal of
113,771; and private investments were $114, out of a goal of $330,000. The
intended and actual results are described in the table below.

          Table No. 1 – Huancavelica Economic Service Center GDA
                             Actual results   FY 2003        Percent of
                                12/31/03      Targeted        Target
 Indicators                   (unaudited)      Results       Achieved
 Increase in Net Sales             $190,778   $1,155,000       17%
 Additional Employment                5,374      113,771        5%
 Private Investments                   $114     $330,000        0%

The target levels were jointly developed by Buenaventura and USAID/Peru.
Chemonics had already been engaged through a contract in excess of $16 million
to manage ten centers throughout Peru. The Mission had no plans to open a
center in the Huancavelica valley of Peru until the Buenaventura Mining
Company agreed to provide $1 million of its own funds to build the center to
provide assistance to its many displaced mine workers in the valley. The Mission
agreed and amended Chemonics’ contract for an additional $140,000. The annual


                                                                             15
goals for the Huancavelica Center described above were based upon projections
used by Chemonics in the other ten centers, derived from successful experience
on those corridors, and adjusted to consider the productive characteristics of
Huancavelica. Economic conditions such as poverty and unemployment in these
ten areas were not as acute as they were in the Huancavelica valley, which caused
problems in attracting and retaining qualified professionals for the Huancavelica
Center and delayed implementation. Hence, the 2003 targeted levels described
above were unrealistically high.

In addition to using targets based on assumptions that were not necessarily
applicable to the Huancavelica valley, Mission and Chemonics officials were not
as focused on meeting the 2003 annual goal as they were in meeting the overall
Huancavelica Center goals of $3.85 million, 379,237, and $1.1 million for net
sales, additional employment and direct investments, respectively. Both Mission
and Chemonics officials were confident that those goals could be met by the
contract ending date in 2007 without additional funding from the Buenaventura
Mining Company. Further, a Chemonics official explained that problems related
to Huancavelica were mostly in the first year, and he gave examples of recent
successes in the trout, wool, and asparagus industries. Still, the USAID/Peru
CTO agreed that revising the intermediate annual targets that would reflect the
challenging circumstances in the valley would serve as a useful monitoring tool.

As stated above (page 13), according to ADS 202.3.6, without intended results or
targeted outputs identified, USAID/Peru could not determine if its alliance
activities were having the desired effects. Also, according to Establishing
Performance Targets, TIPS 8, a natural tension exists between the need for setting
realistic targets and the value, from a motivational perspective, of setting targets
high enough to ensure that staff and stakeholders will stretch to meet them. When
motivated, people can often achieve more than they imagine. At the same time,
realistic targets build confidence about an operating unit’s ability to plan and
perform. When an operating unit sets targets that are too high, it constantly falls
short of the expectations it sets for itself and others.

In light of the circumstances described above, we are making the following
recommendation:

       Recommendation No. 2: We recommend that USAID/Peru
       revise the planned levels of intermediate annual targeted
       results for the Huancavelica Economic Service Center such
       that the annual target levels more closely reflect the slow
       implementation due to the challenging circumstances within
       the Huancavelica valley of Peru.




                                                                                 16
Evaluation of   USAID/Peru agreed with the findings and recommendations presented in this
Management      report. Accordingly, management decisions were made for the recommendations.
                USAID/Peru comments are included in their entirety in Appendix II.
Comments
                Recommendations one and two have been slightly changed from the draft report
                to be consistent with the terminology used in the Mission.

                Determination of final action will be made by the Bureau for Management’s Office
                of Management Planning and Innovation (M/MPI/MIC).




                                                                                             17
This page intentionally left blank.




                                      18
                                                                                    Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted this audit in accordance
              with U.S. generally accepted government auditing standards. The audit was one of
              a series of worldwide audits to be conducted by the Regional Inspector General
              offices. This audit was designed to answer whether USAID/Peru (1) considered
              utilizing Global Development Alliances (GDAs) in planning its activities; (2)
              reported its GDAs accurately and completely; and (3) ensured that its GDAs
              achieved their intended results. We were unable to fully answer the third audit
              objective because USAID/Peru did not establish what its intended results were for
              two of its three GDAs. This constituted a scope limit upon the audit. While we
              could not render a complete conclusion to this objective without such information,
              the lack of such did not prevent us from reporting on problem areas that came to
              our attention.

              The audit was limited to USAID/Peru GDAs, as defined by the GDA Secretariat
              in USAID/Washington, which had funding for fiscal year 2003. USAID/Peru
              reported three GDAs which had funding. USAID/Peru committed amounts of
              $140,000, $5.25 million, and $250,000 to each GDA for a total of approximately
              $5.7 million. We did not include GDAs which had activity in Peru but whose
              funding authority originated from USAID/Washington, nor did we include
              regional GDAs. USAID/Peru was selected for the audit due to the relatively
              large number of GDAs compared to other missions in the Latin America and
              Caribbean bureau.

              In planning and performing the audit, we assessed the effectiveness of internal
              control as related to GDAs.        Management controls we tested included
              management’s self-assessment as reported in its 2003 Federal Managers’
              Financial Integrity Act (FMFIA) review and its methodology for reporting GDA
              information to the GDA Secretariat in USAID/Washington. We also reviewed
              management controls related to reporting GDA information in its Annual Report.
              Relevant criteria included Automated Directives System 200 through 203, TIPS,
              the GDA Secretariat’s Tools for Alliances Builders, and A Practical Framework:
              10 Steps for Analyzing and Integrating Public-Private Alliances into USAID
              Strategic Planning.

              We conducted the audit at USAID/Peru and at various GDA partner offices
              located in Lima. The audit fieldwork in Lima was conducted from November 2
              through November 19, 2004, and additional analysis was conducted in El
              Salvador until November 26, 2004.




                                                                                             19
Methodology

In answering the audit objectives, we examined the Mission’s Strategic Plan for
Years 2002 through 2006, its Fiscal Year 2004 Annual Report, and the Mission’s
GDA information that was reported in the GDA Secretariat’s database. We also
examined memorandums of understanding and cooperative agreements between
the Mission and its GDA partners, as well as program descriptions, work plans,
and progress reports from alliance partners. We conducted interviews with both
Mission and alliance partner personnel at USAID/Peru and at local offices
managed by alliance partners.

We did not establish materiality thresholds for the first two audit objectives
regarding whether the Mission considered utilizing GDAs in planning its activities
and whether the Mission reported its GDAs accurately and completely because these
two objectives were descriptive in nature.

To determine whether GDAs achieved their intended results (or planned outputs),
we had planned to verify reported actual results which had met or exceeded
intended levels of results as of the date of our audit scope. However, since the
Mission had not established what its intended results were for two of its three
GDAs, we had no results to verify and therefore could not fully answer the audit
objective. For the third GDA which did have planned outputs identified, we
answered the objective negatively because the GDA had achieved less than 80
percent of its intended results.




                                                                               20
                                                                                          Appendix II


Management
Comments


DATE:         January 28, 2005

FROM:         Hilda Arellano, USAID/Peru Mission Director

TO:           Steven H. Bernstein, Regional Inspector General, San Salvador

SUBJECT:      Comments on the Draft Report of the Audit of USAID/Peru’s Global Development
              Alliances (GDAs)

USAID/Peru appreciates the time and effort your staff took in conducting the audit of the Mission’s
GDAs. We have reviewed the draft audit report, and we agree with the two RIG recommendations, both
of which we find very useful. We believe that implementation of these recommendations will help us
manage our GDAs better to achieve the expected results.

The Mission has some specific comments to make regarding the draft audit report. First, the Mission
would prefer to use the terms “performance indicators” and “performance targets” instead of “targeted
outputs,” to be consistent with the terminology used in the Mission. Second, there are some factual
corrections to make to the report. Both types of changes have been noted in the attached version of the
draft report.

In addition, the Mission is offering additional information on the analysis that led to the
recommendations. This is included as comments, which follow the Mission’s management decisions
and actions taken/planned:

Recommendation No. 1: We recommend that USAID/Peru develop targeted performance
indicators for its Lesser Known Species and Cordillera Azul National Park Global Development
Alliances, with specified intermediate goals and dates demonstrating by when planned results will
be achieved over the projects’ lives.

Lesser Known Species

Actions taken/Planned

•   The Mission is working with the Alliance partners to establish more specific performance indicators
    and targets for the GDA portion of the Cooperative Agreement (CA) with World Wildlife Fund
    (WWF). New performance indicators with specific intermediate targets over the project’s life will
    be incorporated in the modification of the CA that is being renegotiated. The Mission plans to have




                                                                                                    21
    an approved revised set of performance indicators and targets for the CA with WWF, including for
    the GDA portion, by March 30th.

Comments:

The Mission offers the following additional information to clarify the scope of the CA with World
Wildlife Fund (WWF).

•   In May 2002, USAID/Peru signed a CA for approximately $2.1 million with WWF, procured
    through a Leader with Associates mechanism, by which WWF agreed to implement a forest sector
    project. This agreement was modified in September 2002, to increase USAID’s contribution by
    $550,000 in support of the newly approved GDA, Sustainable Forest Global Alliance, involving
    USAID, WWF and Metafore. Of this amount, $250,000 was obligated from USAID/Peru’s program
    funds and the remaining $300,000 through the GDA Secretariat in USAID/Washington. Also
    involved in this GDA were Exportimo/South Cone Trading Company, a Los Angeles-based furniture
    manufacturer, and Magensa, a Peruvian furniture manufacturer. These two companies and WWF
    agreed in the aggregate to match USAID’s contribution of $550,000. The modification allowed the
    parties to promote Lesser Known Species of wood for furniture manufacturing. Funds were
    allocated to the furniture companies, so that both could manufacture, promote and sell furniture
    manufactured from alternatives to the traditional species of wood, such as mahogany and oak.

•   In March 2003, another amendment to the WWF CA increased USAID’s contribution by almost
    $9.9 million (bringing the new total up to $12.5 million, including the GDA project), to implement
    the CEDEFOR project, the design of which was called for in the original CA signed in 2002 to
    promote the reform of Peru’s forest sector.

•   In April 2003, a new CA was signed with WWF, for a total of $3.5 million, to show rapid results in
    terms of income and job opportunities resulting from the sustainable use of forest resources. This
    new CA was called Aguaytía-Von Humboldt and was signed making use of the LWA competed in
    USAID/Washington. Because of the evolution and complexity of the program, in May 2004,
    USAID began the process of merging all these activities into one single cooperative agreement, and
    refine results and performance indicators. A modification of the CA will include these changes.

Cordillera Azul National Park

Actions Taken/Planned:

•   In January 2005, the Field Museum of Chicago (FMC) submitted the final draft Performance
    Monitoring Plan (PMP) for comment. USAID has reviewed and commented on this version and
    expects changes and final approval to take place by mid-February.

Comments:

The Mission concurs with the RIG finding that the Cordillera Azul GDA did not identify performance
indicators and targets. At the same time, the Mission believes the reason for the lack of such
performance indicators was not, as stated on p. 12 and described on p. 13 of the draft report, a lack of



                                                                                                     22
guidance, but rather the complexity of the program and the delays in reaching agreement between this
non-traditional implementing partner and the Mission on the performance monitoring system. The
Mission offers the following information:

•   In April 2003, the Field Museum of Chicago (FMC) signed a CA with USAID for the integrated
    management of the Cordillera Azul National Park and its buffer zone, to support the generation of
    economic opportunities and reduce cultivation of illicit crops (coca and poppy). Funding for this
    activity came from the Andean Counter-Narcotics Initiative (ACI) account.

•   FMC was a new partner for USAID, this being the first agreement signed between USAID and
    FMC. FMC faced a steep learning curve to absorb all the unique requirements of USAID, in
    addition to the standard start-up issues in a difficult area of the country. Significant time was needed
    on the part of both FMC and USAID staff to explain and discuss financial management guidance and
    programmatic requirements. FMC is an environmental conservation organization and is primarily
    interested in conservation results, while USAID, with the use of ACI funding, required results
    related more to alternative development. As a result, there was an adjustment period during which
    both organizations worked to synchronize their expectations and define objectives, results and
    methods of measurement.

   The agreement states the overall expected results for the four-year program, while the Program
    Description of the Agreement indicates that the monitoring and evaluation system was expected to
    be put in place during the first year of activities (Agreement pages B13, B14 B19). During the first
    six months, FMC worked to establish field offices and teams and made adjustments for the specific
    needs of field operations. In addition, FMC contracted the firm of ARD to assist it in the elaboration
    of the PMP. At the same time, the Mission was developing indicators for all USAID/Peru programs
    financed with ACI funds.

   As scheduled, FMC submitted a first PMP draft in November 2003. USAID reviewed the PMP and
    found it too complex and focused on processes rather than results. Additionally, results and
    indicators needed to be improved to better respond to Mission priorities, that is, contributions toward
    preventing coca cultivation in protected areas and more tangible indicators regarding promotion of
    economic benefits, given that the award was financed through ACI funds. During this process
    USAID coordination and input was continuous.

   FMC submitted a revised PMP in April 2004. FMC stopped working with ARD, since the guidance
    and training provided on monitoring and project performance management were not deemed
    adequate. As a new USAID partner, FMC required high levels of information sharing and
    coordination with USAID, and the project CTO actively engaged in the process of developing the
    PMP.

   In July 2004 and subsequently in September 2004, the performance monitoring system was revised
    by FMC into a practical, useful and visual planning tool that expresses annual targets within the
    context of long-term goals. It focuses on the area of manageable influence -- the Cordillera Azul
    National Park and the Buffer Zones in prioritized areas -- and it uses only one type of measuring
    unit: hectares that are compatible with conservation. This facilitates results measurement.




                                                                                                         23
•   In January 2005, the Field Museum of Chicago delivered the final draft of the PMP. USAID revised
    and commented on the draft and plans to approve it by mid-February, once final changes are made.

Recommendation No. 2: We recommend that USAID/Peru revise the planned levels of
intermediate annual targeted results for the Huancavelica Economic Service Center such that the
annual target levels more closely reflect the slow implementation due to the challenging
circumstances within the Huancavelica valley of Peru.

Actions Planned

•   The Strategic Objective team will assess the feasibility of the Huancavelica Economic Service
    Center to achieve the expected results within the required time frame.
•   Based on the assessment, USAID will propose an extension of the life of the GDA activity and
    revise the annual interim targets. The Mission expects to have revised annual targets negotiated with
    Buenaventura by June 30, 2005.




                                                                                                      24
